App. 1

IN THE SUPREME COURT OF THE
STATE OF OREGON
In the Matter of the Marriage of
Loredana Elizabeth BOTOFAN-MILLER,
Respondent on Review,
and
Brett Robert MILLER,
Petitioner on Review.
(CC C104720DRA) (CA A161266) (SC S065723)
En Banc
On review from the Court of Appeals.*
Argued and submitted January 18,2019.
Robert Koch, Tonkon Torp LLP, Portland, argued
the cause and filed the briefs for petitioner on review.
George W. Kelly, Eugene, argued the cause and
filed the brief for respondent on review.
NELSON, J.
The decision of the Court of Appeals is reversed.
The judgment of the circuit court is affirmed.
NELSON, J.
This is a child custody dispute arising out of fa­
ther’s motion to modify a custody determination made
at the time of the dissolution of the parties’ marriage,
which awarded mother sole legal custody of child. At
* On appeal from Washington County Circuit Court, Kirsten
E. Thompson, Judge. 288 Or App 674, 406 P3d 175 (2017).

App. 2
the conclusion of the modification proceeding, the trial
court found that there had been a material change in
circumstances concerning mother’s ability to parent
child and that a change of custody from mother to fa­
ther was in child’s best interest, and it awarded sole
legal custody of child to father. On mother’s appeal, the
Court of Appeals reversed the judgment of the trial
court on the ground that, as a matter of law, there was
insufficient evidence in the record to support the
court’s finding of a change in circumstances and, thus,
that custody modification was not warranted. BotofanMiller and Miller, 288 Or App 674,406 P3d 175 (2017).
For the reasons that follow, we hold that sufficient evi­
dence in the record supported the trial court’s ruling
that father had proved a change of circumstances. We
also address an issue that the Court of Appeals did not
reach: whether the trial court erred in concluding that
a change in custody was in child’s best interest. We
hold that the trial court did not err in so concluding.
Therefore, we reverse the decision of the Court of Ap­
peals.
STANDARD OF REVIEW
Historically, in an appeal from a suit in equity, as
with the instant case, appellate review of a trial court’s
findings was de novo. However, in 2009, the legislature
amended ORS 19.415(3) to provide that de novo review
in cases like this one is discretionary. Or Laws 2009, ch
231, § 2. The Court of Appeals in this case declined to
exercise its discretion to review the case de novo.

App. 3
Botofan-Miller, 288 Or App at 675. We also decline to
review the case de novo.
In keeping with that approach, we view the facts
pertinent to review of the Court of Appeals’ change-incircumstances decision in the light most favorable to
the trial court’s disposition. That is, we will uphold the
trial court’s findings of facts if there is any evidence in
the record to support them. Sea River Properties, LLC
v. Parks, 355 Or 831, 834, 333 P3d 295 (2014). As part
of that consideration, when we view the record, we ac­
cept reasonable inferences and reasonable credibility
choices that the trial court could have made. State v.
Cunningham, 337 Or 528, 539-40, 99 P3d 271 (2004).
Moreover, if the trial court failed to articulate its fac­
tual findings on a particular issue, we assume that the
trial court decided the facts in a manner consistent
with its ultimate conclusions, as long as there is evi­
dence in the record, and inferences that reasonably
may be drawn from that evidence, that would support
its conclusion. State v. Serrano, 346 Or 311, 326, 210
P3d 892 (2009).
The Court of Appeals concluded that the trial
court erred in finding a change in circumstances and,
for that reason, it did not reach the question whether
the trial court erred in ruling that custody modification
was in child’s best interest. Appellate courts review the
trial court’s best interest determination for abuse of
discretion. Epler and Epler, 356 Or 624, 636, 341 P3d
742 (2014) (so holding). That is, the court will uphold
the trial court’s best interest determination unless
that court exercised its discretion in a manner that is

App. 4
“clearly against all reason and evidence.” Espinoza v.
Evergreen Helicopters, Inc., 359 Or 63, 117, 376 P3d
960 (2016).
We state the following facts with those standards
of review in mind.
UNDERLYING FACTS
The parties were married in April 2009, and child
was born in June 2009. The parties separated in Octo­
ber 2010, when child was about 17 months old. Imme­
diately after the separation, child spent most of her
time with mother. Beginning in February 2011, child
spent about a third of her time with father.
During the dissolution proceedings, there were
some signs that mother was experiencing mental
health issues. In 2010, mother twice reported to police
that father was physically abusive toward her, but the
trial court in the original dissolution proceeding con­
cluded that her allegations were unfounded.1 And, in
February 2011, mother took child to a hospital emer­
gency room and reported that father had been poison­
ing her and child. According to a DHS report, mother
appeared delusional, and there was no evidence of poi­
soning. Mother was hospitalized and given antipsy­
chotic medications. Mother attributed the psychotic
episode to sleep deprivation and her anxiety about
1 From this point forward, to avoid confusion, we refer to the
trial court in the original dissolution proceeding as the “trial
court” and to the trial court in the modification proceeding as the
“modification court.”

App. 5
father’s extended parenting time. Mother’s medical
providers concluded that mother did not have a psy­
chotic illness and that she was not at risk for recurring
psychotic episodes.
Notwithstanding those incidents, at the time of
the dissolution proceedings, father believed that
mother and child had a healthy relationship and that
child was flourishing. Father did not question mother’s
ability to parent child, and he did not object to mother’s
request for legal custody of child; For that reason, the
trial court did not order a custody evaluation or make
any findings about custody in its judgment of dissolu­
tion. The court awarded mother sole legal custody of
child, awarded parenting time to father (including reg­
ular overnight stays), and, for reasons we will next dis­
cuss, ordered that child be immunized on a schedule
set by an agreed-upon pediatrician. The parties’ mar­
riage was dissolved in July 2011, when child was about
two years old.
During the dissolution proceeding, father learned
that mother had not had child immunized according to
the vaccination schedule set by child’s pediatrician,
Harper, and mother disclosed her general resistance to
vaccinations to the trial court during a February 2011
hearing on certain temporary matters. At the conclu­
sion of that hearing, the court ordered mother and
father to follow Harper’s recommendations for vac­
cinating child. In April 2011, the trial court entered a
limited judgment in which it found that “[t]here has
been a significant gap in the health care of the minor
child” and ordered the parties to follow the

App. 6
pediatrician’s directions “as to all health care issues,
including vaccinations.” About two weeks after that
limited judgment was entered, father remained con­
cerned that mother was interfering with the directions
of the pediatrician. In an affidavit attached to a motion
seeking certain medical records, father stated that he
did not believe that child had received her scheduled
vaccinations and booster vaccinations.
In a court filing, mother responded that father had
“exaggerated the gap in [child’s] medical care.” Mother
explained that she had had financial problems obtain­
ing and maintaining insurance coverage but had tried
to keep child current with her vaccinations. She stated
that, as had been required, she had taken child to Har­
per, who had recommended a course of vaccinations.
Mother further explained that, thereafter, she became
uncomfortable with Harper, because Harper had re­
marked on mother’s and father’s tense relationship.
Mother decided, therefore, to begin taking child to an­
other pediatrician, Dr. Thomas. Mother averred that,
as of April 2011, child was caught up with and was fol­
lowing the vaccination schedule established by
Thomas.
In July 2011, the court, as noted, awarded mother
legal custody of child and granted mother sole medical
decision-making authority. However, notwithstanding
mother’s agreement to continue to follow Thomas’s
vaccination schedule, and in light of continuing con­
cerns about mother’s general resistance to vaccina­
tions, the trial court included a provision in the
judgment of dissolution requiring mother to “confer

App. 7
with [child’s] pediatrician to ensure that a proper vac­
cination schedule is in place for [child].”
After the dissolution judgment was entered, father
began to notice changes in mother’s ability to parent
child, which ultimately led him to move for a change in
of custody. Those changes related generally to mother’s
struggles in making medical decisions and to certain
harmful repercussions to child of mother’s increasing
anxieties about child’s wellbeing.
For instance, father became increasingly con­
cerned about mother’s inability to make medical deci­
sions for child after child developed an eye condition in
2013 that resulted in her eyes crossing, giving her dou­
ble vision. In February 2014, child’s ophthalmologist,
Dr. Wheeler, began recommending surgery to address
the condition. He explained that vision therapy proba­
bly would not solve the underlying problem and that
delaying surgery risked child’s double vision becoming
permanent. Mother resisted scheduling surgery and
sought out opinions on online forums suggesting alter­
natives to surgery. Mother spent dozens of hours dis­
cussing those opinions with child’s doctors and their
staff. She also started taking child to a different oph­
thalmologist, Karr, during this time. Karr also recom­
mended surgery. Mother finally agreed to schedule the
surgery after father informed her that he would be
seeking custody modification.
The surgery, which ultimately took place in De­
cember 2014, was successful, and child suffered no
long-term consequences to her vision. However, during

App. 8
the prolonged period of delay, child suffered balance
and coordination problems—for example, she would
fall over while coloring—and she experienced stomach
aches. She also struggled at school academically, with
writing and fine-motor skills, and she struggled so­
cially. All those problems resolved after the surgery.
During the period after the dissolution, father also
became aware that child was again falling behind in
her immunizations. Despite the trial court order di­
recting mother to follow the pediatrician’s vaccination
schedule and notwithstanding mother’s assurances
that she would continue to do so, mother chose not to
vaccinate child for at least two years, between January
2012 and January 2014.
In addition, after the dissolution, father observed
that mother frequently changed medical providers for
child, often seeing multiple pediatricians and eye-care
professionals at once. Father also became aware that
mother was not providing appropriate dental care to
child. She did not take child for regular dental check­
ups, she refused fluoride treatments (falsely telling the
dentist that she was providing fluoride at home), and
she refused x-rays.
Moreover, after the dissolution, child began having
serious emotional problems while in mother’s care.
Child began to experience emotional dysregulation, ex­
clusively in mother’s presence, in which child threw ex­
treme temper tantrums, bit mother, pulled mother’s
hair, and dug her fingernails into mother’s skin.
Mother sought treatment for child’s behavior from the

App. 9
Morrison Center, which provides, among other things,
mental health treatment for children. From March
2012 to August 2014, mother and child participated in
three multi-session courses of treatment at the Morri­
son Center. Morrison Center staff reported that
mother often was late for appointments and missed
some appointments altogether. All three courses of
treatment ended informally by mother instead of for­
mally by Morrison Center staff, and the first course
ended when mother simply stopped attending the ses­
sions. Staff concluded that child had an attachment is­
sue with mother and advised mother about how to deal
with child’s emotions, including giving mother parent­
ing coaching and modeling techniques, but mother
was, essentially, unresponsive to those efforts. Mother
consistently attributed child’s problems to father’s par­
enting and transitions to custody at father’s house, and
never attained a level of introspection that allowed her
to recognize her own role in child’s behavior.
Finally, by the time child was in kindergarten,
mother had difficulty ensuring that child arrived at
school on time, and child was often tardy.
In October 2014, father moved the court to modify
the custody determination to give him medical deci­
sion-making authority. Specifically, father contended
that mother was not meeting child’s medical needs in
four areas: vision care, dental care, provision of timely
vaccinations, and the provision of information to med­
ical providers. Father eventually amended that motion
to seek full legal custody of child. As part of the modi­
fication proceeding, the court appointed a neutral

App. 10
custody evaluator, Dr. Sabin, to conduct a custody and
parenting time evaluation, and it ordered the parties
to participate in and make child available for inter­
views, evaluations, and testing.
Sabin issued a lengthy report in which she con­
cluded that custody of the child should be awarded to
father. Her primary findings all related in some way to
her foundational conclusion that mother had an “anx­
ious attachment” parenting style. Sabin explained that
parents who have an anxious attachment parenting
style generally have difficulty promoting their chil­
dren’s development as separate individuals, because
they have mixed feelings about their children’s inde­
pendence. And a child who is overly enmeshed or anx­
iously attached may, at times, become angry with the
anxiously attached parent, when the child is trying to
individuate or become more independent.
In mother’s case, in Sabin’s view, mother’s anxious
attachment parenting style had a variety of concerning
effects. For instance, it manifested in mother’s diffi­
culty in helping child with emotional regulation; child’s
tantrums, which continued until child was five years
old, were extreme and prolonged and occurred only in
mother’s home. Additionally, mother’s anxious attach­
ment parenting style caused mother to have trouble
setting clear limits with child, including, for example,
failing to require child to brush her teeth twice a day,
because she did not want to confront child and set lim­
its, even for tooth-brushing.

App. 11
Sabin also opined that mother’s anxious attach­
ment parenting style affected her medical decision­
making and was the reason for her difficulty trusting
doctors. Sabin stated that, in her experience and in the
experience of some of child’s medical providers,
mother’s struggles with decision-making about im­
munizations and the eye surgery were unique, and her
refusal to have child vaccinated notwithstanding the
court order to do so demonstrated not only mother’s
mistrust of medical providers, but also, potentially,
trouble accepting authority.
Finally, in Sabin’s view, mother’s anxious attach­
ment parenting style likely affected other areas of her
parenting as well. For example, mother’s difficulty sep­
arating her own anxiety about being away from child
from child’s emotional responses to transitions in par­
enting caused her to consistently contend that child
was spending too much time with father. Ultimately,
Sabin predicted “with a high degree of medical cer­
tainty based on [her] training and experience and
based on what [she had] heard from [mother] in the
present” that, over time, it will become more and more
difficult for mother to promote child’s healthy inde­
pendent identity.
With respect to her recommendation concerning
custody, Sabin assumed for purposes of her report that
a change in circumstances had been demonstrated; she
therefore confined her discussion to the factors set out

App. 12
in ORS 107.137 for determining whether a change in
custody was in the best interest of child.2
ORS 107.137 requires the court to consider the fol­
lowing factors in determining the best interest of the
child in custody matters:
“(a) The emotional ties between the
child and other family members;
“(b) The interest of the parties in and at­
titude toward the child;
“(c) The desirability of continuing an ex­
isting relationship;
“(d) The abuse of one parent by the
other;
“(e) The preference for the primary
caregiver of the child, if the caregiver is
deemed fit by the court; and
“(f) The willingness and ability of each
parent to facilitate and encourage a close and
continuing relationship between the other
parent and the child. $ $ * ”
ORS 107.137(1).
Sabin found that, of those factors, only three were
implicated in this case and that those three factors
2 Custody modification determinations require a two-step in­
quiry: (1) asking whether circumstances relevant to the capacity
of either parent to take care of the child have changed; and (2) if
a change in circumstances has been established, asking whether
modification is in the best interest of the child. See Boldt and
Boldt, 344 Or 1, 9, 176 P3d 388 (2008) (so stating).

App. 13
weighed in favor of transferring custody to father.3
Specifically, with respect to factor (b), “interest of the
parties in and attitude toward the child,” Sabin stated
that mother’s anxious attachment parenting style
made it difficult for her to separate her own needs and
her own anxiety about being away from child from
child’s needs and responses to transitions. She further
opined that the problem will worsen over time.
Respecting factor (e), the preference for the pri­
mary caregiver, Sabin pointed to two areas of concern.
The first, Sabin explained, was mother’s difficulty in
making medical decisions:
“I don’t believe that mother can make compe­
tent medical decisions when she is not under
the scrutiny of the court. Father cannot con­
tinue to appeal to the court when the need for
competent medical decisions arise [s].”
The second was mother’s mental health. Sabin stated
that mother had great difficulty communicating reality
in a consistent way; she was vague; she answered ques­
tions with non sequiturs; and she provided contradic­
tory information, all of which could be very confusing
for a child and others. Sabin further observed that
mother often revised the past to make it more accepta­
ble to herself and others, including, for example, telling
3 Sabin found that factor (a) was not implicated because the
child had strong emotional ties with both parents and other fam­
ily members; factor (c) was not implicated because there was no
potential for discontinuing an existing relationship; and factor (d)
was not implicated because, as the trial court had ruled in the
dissolution proceeding, father had not abused mother.

App. 14
Sabin and others that father agreed with her medical
decision-making and that she and father were actually
in agreement about child’s medical care, even in the
face of contradictory medical and court records. Sabin
also noted mother’s psychotic “event” in 2011, which,
she said, although not necessarily predictive of other
psychotic events, was nonetheless an indication that
mother was more susceptible than the average person
to mental health issues when coping with stress. And,
Sabin stated, mother had an unaddressed history of
extensive childhood abuse, which likely contributed to
her anxious attachment parenting style, her difficulty
in decision-making, and her contradictory communica­
tions.
Finally, regarding factor (f), the willingness and
ability of each parent to facilitate the child’s relation­
ship with the other parent, Sabin noted that mother
consistently opposed “a significant or developmentally
appropriate level of parenting time [for father] at any
time since the parental separation.”
Sabin concluded that father’s parenting was not
similarly problematic and that, therefore, the forego­
ing factors clearly supported making father the custo­
dial parent.
At the modification hearing, the court heard testi­
mony from Sabin, mother, and father. In addition,
mother presented the testimony of an expert witness,
Dr. Poppleton, a psychologist, who stated that he had
reviewed Sabin’s notes and report and had talked to
many of the witnesses who had contributed to Sabin’s

App. 15
report. He concluded that mother was fully capable of
meeting child’s medical needs, that there was no rea­
son to be concerned that mother’s difficulties with med­
ical decision-making would be harmful to child, and
that there was no connection between mother’s child­
hood abuse and her parenting. He also believed that
Sabin had not performed the level of analysis neces­
sary to support her conclusion that mother had an anx­
ious attachment parenting style and that there was
insufficient support for Sabin’s conclusion that
mother’s anxiety stemmed from anything other than
her fraught relationship with father. Based on his find­
ings, Poppleton concluded that a change in custody was
not warranted.
THE MODIFICATION COURT’S RULING
The modification court ruled that there had been
a substantial change in circumstances and that a
change in custody was in child’s best interest, and it
awarded legal custody of child to father. At the conclu­
sion of the hearing, the court stated that it found that
child’s eye surgery would not have taken place if not
for father’s pressing the issue and that the delay could
have been detrimental to child. Similarly, the modifica­
tion court expressed its concern that mother had not
complied with the trial court’s order to adhere to the
vaccination schedule. With respect to the Morrison
Center sessions, the court found that “there were mul­
tiple cancellations and no-show appointments,” and
“treatment was closed by the Morrison Center without
actually an intentional closing by the provider.”

App. 16
The court specifically rejected Poppleton’s conclu­
sion that Sabin did not have a basis for opining about
mother’s anxious attachment parenting style. The
court found that Sabin’s opinion was well taken, based
on her observations of both parents and child and
based on her years of experience as a pediatric medical
doctor and a psychologist.
Father’s lawyer asked the court to make specific
findings of changed circumstances. The court re­
sponded as follows:
“[A]t the time that the parties divorced the
child was very young. There were some issues
regarding medical planning and care, but
there were really no educational issues or
other kinds of issues that presented themsel[ves]. There was nothing to indicate that
mom had any difficulty at that juncture with
day-to-day care, scheduling, promptly getting
the child to and from or coordinating care and
visits. Over the course of the—last four years
while mother has been the primary caretaker
those have been the issues that have been de­
veloping, which is a difficulty in implementing
the plan of vaccination that was agreed to and
ordered by the Court and also implementing
a plan of medical treatment. Fortunately,
there’s no indication that the child suffered
any—any illness as a result of that, but
there—it appears to the Court that there was
a delay in the surgical decision that may have
impacted that first half of kindergarten. And
just that the course of difficulty in terms of
dealing with the primary treatment

App. 17
providers, the Court’s assessment is—and the
record supports—that mother was unusually
difficult for those primary care providers at
the pediatric level and ophthalmological level
to assist mother to understand and imple­
ment a plan of treatment. Likewise, when
mom sought out the treatment at Morrison
Center she had difficulty attending the visits,
attending them timely and completing the
course of treatment. And so those are the
things that are really the change of circum­
stances that support that—and father did not
report the same behavioral issues. * * * So it
jg * * * the deferring, the difficulty in commu­
nication and in particular with the Morrison
Center multiple, multiple tardies and multi­
ple tardies with the—or no-shows—and mul­
tiple tardies with kindergarten. I’m concerned
that as the child gets older and her care be­
comes more complicated that these things will
only get worse. Dr. Sabin predicted as much
and I think that Dr. Sabin was qualified to
make those projections based on what she ob­
served.”
The modification court did not explicitly state that cus­
tody modification was in the best interest of child, nor
did it mention the statutory best-interest factors. After
making the statement just quoted, the court turned to
mother’s lawyer and asked him directly whether he
would like “anything additional in terms of clarifica­
tion.” Mother’s lawyer asked for a clarification of the
court’s order respecting the transition of custody to fa­
ther, but he did not ask for any further findings or

App. 18
clarification of the ruling concerning the standards for
modification.
In a written supplemental judgment, the modifi­
cation court listed the circumstances that it had found
to support its custody modification order. Those were
similar in all material respects to the court’s oral rul­
ing, except that, in the written ruling, the court ex­
pressly also found that “[i]t is in the child’s best
interests that Father be awarded the custody of the
parties’ minor child at this time subject to Mother’s
right to parenting time.” Mother did not object to that
finding or to any other part of the supplemental judg­
ment. The supplemental judgment states, in part:
“3. A significant change of circumstances
[has] occurred since the entry of the last judg­
ment, more specifically:
“a. At the time of the parties’ divorce the
child was young and there were some issues
regarding medical care, but there were no ed­
ucational issues and no indication that
mother had problems scheduling or coordinat­
ing the child’s medical or educational care.
“b. In the four years since the original di­
vorce with Mother as the custodial parent, she
had struggled to implement the vaccination
schedule as originally agreed to and ordered
by the court, [and she] struggled to work with
the child’s primary care providers at both the
pediatric and ophthalmologic levels. Mother
has also struggled to maintain a timely rela­
tionship with the Morrison Center counselors

App. 19
and completing the course of treatment set
forth. Mother has frequently struggled to de­
liver the child to counseling sessions on time
and to school on time.
“c. Father has not reported the same behav­
ioral issues in the child as Mother has.
“d. The Court concurs with Dr. Sabin’s opin­
ion and concern that, as the child grows older,
and her care becomes more complex, that the
above issues will likely get worse. Dr. Char­
lene Sabin was qualified to make the projec­
tions in this regard based on what she
observed during the evaluation.
“4. It is in the child’s best interests that Fa­
ther is awarded the custody of the parties’ mi­
nor child at this time subject to Mother’s right
to parenting time.”
THE COURT OF APPEALS DECISION
Mother appealed the modification court’s ruling to
the Court of Appeals, which reversed. The Court of Ap­
peals prefaced its analysis by stating that the parent
requesting a change in custody bears the burden of
proving a change of circumstances. Botofan-Miller, 288
Or App at 678-79. The court noted that a change in cir­
cumstances cannot be based on evidence that was or
could have been introduced in an earlier custody pro­
ceeding. Id. at 679. The court stated that “[i]t cannot be
a circumstance that the court contemplated at the time
of the earlier determination or a circumstance known
to the other parent that was not raised during an

App. 20
earlier custody proceeding.” Id. (internal quotation
marks omitted). Additionally, the court stated, normal
developmental changes are not unanticipated changes
and, therefore, they cannot, by themselves, provide the
basis for a determination of change in circumstance.
Botofan-Miller, 288 Or App at 679-80.
Applying those rules, the Court of Appeals deter­
mined that the record reflected that most of the cir­
cumstances that the modification court had identified
as bases for its change-of-circumstances conclusion
had been known to father and the trial court at the
time of the original custody determination and thus
could not be considered as bases for modification. The
other circumstances, the court explained, were not det­
rimental to child and were, therefore, legally insuffi­
cient to constitute a change of circumstances
substantial enough to justify a change in custody. Id.
at 682. Accordingly, the court held, as a matter of law,
that father had not proved that a change of circum­
stances had occurred, justifying a change of custody. Id.
at 687.
Specifically, the Court of Appeals noted, first, that
mother’s struggle with implementing the vaccination
schedule ordered by the court was already in evidence
before the dissolution, and, in any case, did not have a
discernible adverse effect on child in light of the fact
that child had had all required vaccinations by the
time of the modification proceeding. Id. at 680-81.
Second, the Court of Appeals concluded that, alt­
hough the child’s eye condition arose after the

App. 21
dissolution, mother’s struggle in working with child’s
pediatricians and eye doctors—for instance, spending
an extraordinary amount of time discussing child’s
medical care, seeking opinions from many different
doctors, and avoiding making medical decisions alto­
gether, even after being told that those decisions were
in child’s best interest—also was not a development
that began after the initial custody determination, be­
cause mother exhibited similar behaviors in connec­
tion with her vaccination decisions before the
dissolution. Therefore, the court concluded, those be­
haviors did not constitute a change in circumstances.
Id. at 681-82.
Third, the Court of Appeals decided that mother’s
failures to attend counseling sessions at the Morrison
Center on time were not legally sufficient to justify a
change in custody, because, in themselves, the failures
to attend counseling sessions did not have an adverse
effect on child. Id. at 682-83.
Fourth, and similarly, the Court of Appeals con­
cluded that mother’s struggle to deliver child to school
on time also was not legally sufficient to constitute a
change in circumstances because, again, the record did
not demonstrate that child’s tardiness had or threat­
ened to have a discernible adverse effect on her. The
Court of Appeals acknowledged that there was evi­
dence in the record (and that the modification court
specifically had found) that child struggled academi­
cally and socially for the first half of kindergarten.
However, the court stated, the modification court found
that those struggles were due to mother’s decision to

App. 22
delay the eye surgery (which finding, the Court of Ap­
peals stated, was amply supported in the record) and
not to child’s tardiness. Id. at 683-84.
Fifth, the Court of Appeals determined that child’s
behavioral issues, which the court acknowledged oc­
curred only in mother’s care, did not constitute a
change in circumstances sufficient to justify a change
in custody, because, in the court’s view, there was no
evidence in the record that child’s behavior was caused
by a change in mother’s parenting abilities or circum­
stances. The court stated,
“At most, the record indicates that [child’s]
poor behavior was a result of [child’s] normal
developmental changes combined with
mother’s anxious attachment to [child], nei­
ther or which sfc $ # constituted a new circumstance from the time that the original custody
order was entered.”
Id. at 685.
Finally, and relatedly, the Court of Appeals con­
cluded that any harm arising out of mother’s anxiously
attached parenting style did not, as a matter of law,
constitute a change of circumstances, because that
characteristic of mother was evident at the time of the
original custody determination. Id. at 686. That is, the
court stated, prior to the dissolution, mother already
had shown at least two of the signs that Sabin identi­
fied as symptomatic of anxious attachment: she had
trouble separating from child, as evidenced by her psy­
chotic break, which was brought on by the stress of

App. 23
mother’s anticipation of child spending more time with
father, and she was overly concerned with medical is­
sues. Additionally, the Court of Appeals noted, Sabin
testified that mother’s attachment style probably orig­
inated from the fact that she had been abused as a
child, which happened long before the custody case; it
was not the result of some new outside stimulus. Id. at
685-86.
To summarize, the Court of Appeals concluded
that the modification court erred in relying on mother’s
slow decision making in medical matters, her exten­
sive questioning of doctors, and the ill effects of her
anxiously attached parenting style on child, because,
in the Court of Appeals’ view, those factors existed be­
fore the dissolution. Therefore, it considered only
mother’s struggle to maintain a timely relationship
with child’s Morrison Center counselors, her struggle
to deliver child to school on time, and child’s behavioral
problems in mother’s home in its determination
whether a change in circumstances occurred. Consid­
ering those three factors together, the Court of Appeals
held that, for the same reasons that each of those fac­
tors was not legally sufficient on its own to justify a
change in custody, those circumstances together also
were not legally sufficient. Id. at 686-87. Based on its
conclusion that there had not been a legally sufficient
change of circumstances to justify a change of custody,
the Court of Appeals did not consider whether a

App. 24
change in custody would be in the best interest of
child.4
ANALYSIS
A parent seeking to change custody must demon­
strate two things:
“(1) [A]fter the original judgment or the last
order affecting custody, circumstances rele­
vant to the capacity of either the moving party
or the legal custodian to take care of the child
properly have changed, and (2) considering
the asserted change of circumstances in the
context of all relevant evidence, it would be in
the child’s best interests to change custody
from the legal custodian to the moving party.”
Boldt and Boldt, 344 Or 1, 9, 176 P3d 388 (2008). Be­
cause the Court of Appeals found it dispositive, we
begin by examining that court’s conclusion that the
modification court erred in ruling that father met his
burden to prove a change of circumstances legally suf­
ficient to justify a change in custody. We conclude that
the Court of Appeals’ view of the type of evidence rele­
vant to such a showing was too narrow. As we shall ex­
plain, the modification court was not required to ignore
evidence of circumstances seriously detrimental to
child simply because, in retrospect, it was possible to
see that, at the time of the original custody
4 Because it reversed the trial court’s judgment granting cus­
tody to father, the Court of Appeals also reversed the trial court’s
supplemental judgment ordering mother to pay father’s attorney
fees.

App. 25
determination, mother already displayed some of the
traits that would eventually become seriously prob­
lematic in her parenting.
As we stated in State ex rel Johnson v. Bail, 325 Or
392,396,938 P2d 209 (1997), the child custody statutes
do not specify what the concept of a “change of circum­
stances” means. However, this court has made clear
that, to justify a change in custody, a change of circum­
stances must be “material.” Id. at 398. A material
change is one that is adverse to child’s welfare. Bogh u.
Lumbattis, 203 Or 298, 300, 280 P2d 398 (1955). That
is, a new development may be considered a legally suf­
ficient change in circumstances only if it is shown that
the change has “injuriously affected the child” or af­
fected the custodial parent’s “ability or inclination to
care for the child in the best possible manner.” Boldt,
344 Or at 9.
The noncustodial parent cannot obtain a change
in custody solely on the basis of facts known at the time
of the original proceeding or evidence that could have
been introduced at the original proceeding. Greisamer
and Greisamer, 276 Or 397,401-02, 555 P2d 28 (1976).
In such a situation, the decision in the prior case with
respect to those facts is res judicata in a subsequent
modification proceeding. Id. at 400. At the same time,
however, when considering new developments, the
modification court need not ignore facts in existence at
the time of the original custody determination. As the
court stated in Bogh, “it is not error for the court to
proceed upon new facts occurring since the rendition
of the decree, considered in connection with facts

App. 26
formerly established upon hearing in the divorce
case[.]” 203 Or at 304 (internal quotation marks omit­
ted). Moreover, a change of circumstances can arise
from the unanticipated but deleterious effects of the
original judgment on the behavior of the custodial par­
ent or the emotional well-being of the child. Gonyea v.
Gonyea, 232 Or 367, 371-72, 375 P2d 808 (1962).
Thus, our case law recognizes that circumstances
existing at the time of dissolution that are not then
seen as problematic may later become detrimental to
the wellbeing of the child. And, as this court has stated,
there is “no constant or standard quantity of change
that will qualify” as a sufficient basis for a custody
modification; rather, “the amount of change necessary
to justify a modification of a decree varies with the
facts of the individual case.” Gonyea, 232 Or at 372.
As we have explained, the standard of review that
we employ in this case requires us to consider the evi­
dence in the light most favorable to the modification
court’s decision to transfer custody to father. That is,
we affirm the modification court’s factual findings if
there is “any evidence” in the record to support them,
and we consider that evidence together with reasona­
ble inferences drawn from it. Additionally, we assume
that the modification court decided the facts in a man­
ner consistent with its ultimate conclusion that father
had established a change in circumstances justifying a
change in custody.5 We have no trouble concluding that,
5 As we have stated, if an appellate court declines to conduct
its own de novo review, it reviews a trial court’s ruling that a

App. 27
when viewed in that light, evidence in the record sup­
ported the modification court’s finding that father had
proved a change in circumstances.
As the modification court stated, at the time of the
dissolution, child was very young, and serious issues
related to mother’s ability to care for her had not yet
arisen. The court specifically found that there had been
a material change in mother’s medical decision-mak­
ing in the four years after the initial custody order.
That finding was supported by evidence in the record.
First, child was up-to-date with her vaccinations at the
time of the dissolution, and mother had agreed to ad­
here to the pediatrician’s vaccination schedule. Second,
child’s eye condition had not yet manifested itself.
Thus, before the dissolution, neither father nor the
trial court had reason to know that mother’s struggles
with medical decision-making would adversely affect
child, for example, in delayed vaccinations and in the
delay in necessary surgery, which caused child to
struggle academically and socially for the first half of
kindergarten and placed her at risk of long-term dam­
age to her eyesight.6

change in custody was in the child’s best interest for abuse of dis­
cretion.
6 Our conclusion that evidence of mother’s struggles in mak­
ing medical decisions may be considered as part of the change-incircumstances determination is not inconsistent with this court’s
decision in Boldt. In Boldt, the court recognized that medical de­
cisions generally fall within a custodial parent’s authority, “un­
fettered by the noncustodial parent’s concerns or beliefs,” and it
stated,

App. 28
Similarly, although mother displayed some anxi­
ety related to the prospect of father’s increased parent­
ing time at the time of the dissolution, the record
reflects that mother and child had a healthy relation­
ship and that child was flourishing during that period.
Although mother’s anxiety was clearly harmful to
her—it led to her psychotic episode—nothing in the
record suggests that mother’s anxiety had any ill effect
on child before the dissolution. And, importantly, noth­
ing in the record foretold that mother’s anxiety over
custody transitions before the initial custody determi­
nation indicated an anxious attachment parenting
style that ultimately would have serious adverse ef­
fects on child.

“Were mother’s concerns or beliefs regarding circumci­
sion all that were asserted in the affidavits in this case,
we would conclude that mother did not carry her initial
statutory burden to demonstrate a sufficient change in
circumstances demonstrating father’s inability to
properly care for M.”
344 Or at 12. Here, unlike in Boldt, mother did not have full
authority to decide whether and when to vaccinate child. The trial
court required mother to adhere to a vaccination schedule; fa­
ther’s concern was that she failed to do so. Additionally, evidence
in the record showed that mother’s struggles with medical deci­
sion-making and following the court order were symptomatic of a
larger issue created by mother’s anxious attachment parenting
style, which was becoming increasingly detrimental to child’s
well-being. Thus, as in Boldt, the change in circumstances that
justified the custody modification was not related to father’s “con­
cerns or beliefs” about particular medical decisions that mother
made, but, rather, was focused on changes in mother’s “ability or
inclination to care for the child in the best possible manner.”
Boldt, 344 Or at 9.

App. 29
As the Court of Appeals observed, child’s behavior
worsened over time after the dissolution, due to child’s
“normal developmental changes combined with
mother’s anxious attachment” to her. Botofan-Miller,
288 Or App at 685. The Court of Appeals concluded
that that was not a legally sufficient change in circum­
stances, because child’s development, and therefore
her reaction to mother’s anxious attachment parenting
style, was “normal,” and, according to the court, normal
behavioral changes in children cannot constitute a
change in circumstances. However, as Sabin stated in
her report and testified at the modification proceeding,
mother’s anxious attachment parenting style was the
source of child’s extreme behavior. The modification
court was entitled to consider the increasingly detri­
mental effects of mother’s anxious attachment parent­
ing style on child, even though those effects became
more detrimental to child’s well-being as a result of
child’s normal developmental changes. And the modifi­
cation court was entitled to consider child’s serious be­
havioral issues even though they were a natural and
normal response to mother’s anxious attachment par­
enting style.
To summarize, before the dissolution, mother dis­
played a resistance to vaccinations, a tendency to perseverate in decision-making over the vaccinations, and
an anxious personality, but evidence in the record sup­
ports the modification court’s conclusion that those cir­
cumstances were not then injurious to child. In the
four years between the dissolution and the modifica­
tion proceeding, however, mother’s anxieties evolved

App. 30
into an anxious attachment parenting style, exacerbat­
ing both her struggles with medical decision making
and her problems separating her own needs from
child’s, and her capacity to care for child diminished.
The modification court was not required to ignore cir­
cumstances detrimental to child’s welfare simply be­
cause they had antecedents that existed at the time of
the dissolution. We therefore conclude that the Court
of Appeals erred in holding that mother’s refusal to
vaccinate in the face of a court order to do so, her pro­
tracted medical decision-making and extensive ques­
tioning of doctors in connection with child’s eye
condition, and the increasingly harmful effects of
mother’s anxiously attached parenting style on child
did not, as a matter of law, support the modification
court’s finding of a change of circumstances.
In addition, when the Court of Appeals considered
the factors that it acknowledged to be new develop­
ments—the late arrivals at school and the late and
missed counseling sessions —it failed to grapple with
Sabin’s foundational conclusion, which the modifica­
tion court credited, that those factors also arose out of
mother’s anxious attachment parenting style and her
consequent inability to separate her own feelings and
needs from those of child. That is, the overarching con­
text of the modification court’s specific findings was Sa­
bin’s view that mother had become increasingly unable
to parent child and that that inability was—and would
continue to be—harmful to child. For that reason, we
also hold that the Court of Appeals erred in concluding
that evidence of those new developments did not

App. 31
support the trial court’s finding of a change in circum­
stances.
In sum, evidence in the record supports the modi­
fication court’s conclusion that all the factors that it
had identified reflected a material deterioration in
mother’s overall ability to parent child that occurred
after the dissolution. And, as we have stated, when the
noncustodial parent establishes that circumstances
existing at the time of the initial custody determina­
tion that are not then detrimental to the child worsen
to the point that the child is or could be seriously
harmed, the noncustodial parent has established a
change in circumstances justifying a change in custody.
Thus, considering the record as a whole, and accepting
reasonable inferences and reasonable credibility
choices that the modification court could have made,
and assuming that the modification court decided the
facts in a manner consistent with its ultimate conclu­
sions, we conclude that ample evidence supported the
modification court’s conclusion that circumstances had
changed in mother’s “ability or inclination to care for
the child in the best possible manner” and that those
changes “injuriously affected the child.” Boldt, 344 Or
at 9.
Having reached that conclusion, we turn to
mother’s argument that the modification court com­
mitted a further error in deciding that custody modifi­
cation was in child’s best interest. Mother argues that
the modification court failed to analyze the statutory
best interest factors listed in ORS 107.137 and that,
therefore, its modification of custody cannot stand.

App. 32
According to mother, we cannot assume that the modi­
fication court applied the correct legal standard, be­
cause the court failed to make a record reflecting its
exercise of discretion. See State v. Mayfield, 302 Or 631,
645, 733 P2d 438 (1987) (requiring factfinding for OEC
403 determination).
Mother did not preserve that argument in the
modification court. State v. Anderson, 363 Or 392, 410,
423 P3d 43 (2018) (ordinary preservation rules apply
to claims that a trial court failed to make findings nec­
essary for meaningful appellate review). Here, after
announcing its ruling transferring custody to father,
the modification court expressly asked mother
whether she would like the ruling to include “anything
additional in terms of clarification.” Mother’s lawyer
asked for a clarification of the court’s order respecting
the transition of custody, but he did not ask for findings
relating to the statutory best interest factors or clarifi­
cation of the ruling concerning the standards for mod­
ification. As this court stated in Anderson, “If
defendant believed that further explanation than the
trial court provided was necessary for meaningful ap­
pellate review, it was incumbent on him to request it.”7
Id.
One final matter requires our attention. The mod­
ification court awarded father attorney fees, over
mother’s objection. The Court of Appeals reversed the
7 As we indicated at the outset, we also reject mother’s re­
quest that we conduct our own de novo review of this or any part
of the modification court’s ruling. ORS 19.415(3).

App. 33
award of attorney fees under ORS 20.220(3)(a), which
provides,
“If the appellate court reverses the judgment,
the award of attorney fees or costs and dis­
bursements shall be deemed reversed.”
In light of our ruling reversing the decision of the
Court ofAppeals and affirming the modification court’s
determination to modify custody in favor of father, we
also reverse the decision of the Court of Appeals with
respect to attorney fees.
The decision of the Court of Appeals is reversed.
The judgment of the circuit court is affirmed.

App. 34
IN THE COURT OF APPEALS OF THE
STATE OF OREGON
In the Matter of the Marriage of
Loredana Elizabeth BOTOFAN-MILLER,
Petitioner-Appellant,
and
Brett Robert MILLER,
Respondent-Respondent.
Washington County Circuit Court
C104720DRA; A161266
Kirsten E. Thompson, Judge.
Argued and submitted March 6,2017.
George W. Kelly argued the cause and filed the
briefs for appellant.
David N. Hobson, Jr., argued the cause for re­
spondent. With him on the brief was Hobson and Asso­
ciates, LLC.
Before Armstrong, Presiding Judge, and Tookey,
Judge, and Shorr, Judge.
SHORR, J.
Supplemental judgment awarding custody of S to
father reversed; supplemental judgment awarding at­
torney fees to father reversed.
SHORR, J.
Mother appeals from a supplemental judgment
changing the custody of a minor child to father and a
second supplemental judgment awarding father attor­
ney fees. As part of father’s motion to show cause why

App. 35
he should not be granted sole custody, father contended
that a change in circumstances since mother and fa­
ther’s original dissolution proceeding had occurred,
justifying a change in custody of mother and father’s
child, S. Specifically, father alleged that mother has an
anxiously attached parenting style that causes her dif­
ficulty in making medical and educational decisions for
S and makes it difficult for her to get S to appointments
and school on time. The trial court agreed with father.
It listed six considerations that it concluded consti­
tuted changes of circumstance justifying a change in
custody, decided that it was in S’s best interest to
change sole legal custody from mother to father, and
awarded attorney fees to father.
On appeal, mother advances three assignments of
error. First, she assigns error to the trial court’s con­
clusion that a change of circumstances has occurred.
Second, she assigns error to the trial court’s decision
that it was in S’s best interest to change custody from
mother to father. And, third, she assigns error to the
trial court’s decision to award attorney fees to father.
Because we agree with mother that the trial court’s
findings and the evidence in the record supporting
those findings are not legally sufficient to constitute a
change of circumstances justifying a change in custody,
we address only mother’s first and third assignments
of error. Accordingly, we reverse the judgment award­
ing custody to father and reverse the judgment award­
ing attorney fees to father.
Mother asks us to exercise our discretion to review
the record de novo. We exercise our discretion to review

App. 36
de novo only in exceptional cases, and decline to do so
here. ORAP 5.40(8). Instead, we are bound by the trial
court’s factual findings provided that they are sup­
ported by any evidence, and we review legal conclu­
sions for errors of law. Sconce and Sweet, 249 Or App
152, 153, 274 P3d 303, rev den, 352 Or 341 (2012).
Under that standard, “we view the evidence, as supple­
mented and buttressed by permissible derivative infer­
ences, in the light most favorable to the trial court’s
disposition and assess whether, when so viewed, the
record was legally sufficient to permit that outcome.”
Ibarra and Conn, 261 Or App 598, 599, 323 P3d 539
(2014) (internal quotation marks omitted). We state
the following relevant facts consistently with that
standard.
The parties married in April 2009, separated in
October 2010, and divorced in July 2011. During their
separation and the pendency of their divorce, S lived
with mother. Mother was initially granted sole legal
custody of S, subject to father receiving parenting time
as ordered by the court.
Prior to the original grant of custody, mother was
having difficulty making medical decisions for S, in­
cluding deciding if and when S should receive vaccina­
tions. In fact, in a limited judgment entered prior to the
judgment of dissolution, the trial court specifically
found that “[t]here ha[d] been a significant gap in the
health care of [S].” Taking mother’s difficulties related
to providing health care into account in awarding cus­
tody, in the judgment of dissolution, the court ordered
that mother

App. 37
“shall have sole medical decision-making au­
thority as the custodial parent. However, the
parties agree to take [S] to Dr. Harper at the
Olson Pediatric Clinic until the parties mutu­
ally agree on a new pediatrician. [Mother] will
confer with [S]’s pediatrician to ensure that a
proper vaccination schedule is in place for
[S].”

Also prior to the original grant of custody, mother
had significant anxiety relating to her attachment to
S. In the winter of 2011, mother had a temporary psy­
chotic episode in the emergency room of a hospital that
resulted in her being hospitalized overnight. The doc­
tors at that hospital indicated that the episode was
caused by stress related to the parties’ divorce. More
specifically, hospital records indicate that mother’s
stress related to her “concern!] about [father] having
extended time with [S].”
Like mother’s difficulties in making medical deci­
sions, mother’s anxiety related to her attachment to
S—especially regarding her hospitalization—was
known to father during the original divorce proceed­
ings. Father sought and gained access to mother’s med­
ical records from that incident, as well as mother’s
other psychiatric and medical records, over mother’s
objections. Despite those concerns as noted, the trial
court awarded mother sole custody of S, subject to fa­
ther receiving parenting time as ordered by the court.
The parties proceeded to coparent without any dif­
ficulties requiring judicial intervention until October
2014 when father filed a motion to show cause as to

App. 38
why the judgment for dissolution should not be modi­
fied to allow father sole medical decision-making au­
thority for S. Father eventually amended that motion
to request an order to show cause why he should not
be granted sole custody of S as well. Father disagreed
with how mother took care of S’s medical care and ed­
ucational needs.
Specifically, regarding S’s medical issues, father
was concerned with mother’s choice to have S under­
take a full course of physical therapy to attempt to fix
an ophthalmological condition before choosing surgery
and mother’s failure to timely vaccinate S in compli­
ance with the original judgment of dissolution. Regard­
ing S’s education, father was concerned that mother
was not “adequately address [ing] [S]’s educational
needs” because mother had enrolled S in only two-andone-half-months of preschool and had initially enrolled
S in half-day rather than full-day kindergarten.
The trial court held a hearing on father’s motion
to show cause, at which father, mother, Dr. Charlene
Sabin, a custody evaluator hired by both parties, and
Dr. Landon Poppleton, a psychologist hired by mother,
testified. At the conclusion of the hearing, the trial
court determined that a change of circumstances had
occurred since the original entry of the judgment of
dissolution and that the best interests of the child
were served by changing custody from mother to fa­
ther. Accordingly, it issued a supplemental judgment
effecting that change of custody.

App. 39
In its written supplemental judgment, the trial
court listed the circumstances that it believed consti­
tuted a significant enough change from when the orig­
inal grant of custody was entered to justify a change of
custody. Those were: (1) “[m] other * * * had struggled
to implement the vaccination schedule as originally
agreed to and ordered by the court”; (2) “[m] other * * *
struggled to work with child’s primary care providers
at both the pediatric and ophthalmological levels”;
(3) “[m] other has * * * struggled to maintain a timely
relationship with * * * counselors and completing the
course of treatment set forth” by a child therapy pro­
gram where S was receiving treatment for behavioral
issues; (4) “[m]other has frequently struggled to deliver
[S] * * * to school on time”; (5) mother has reported
behavioral issues with S that father has not; and (6)
mother has an anxiously attached parenting style that
will cause the previously mentioned problems to get
worse as S grows older. The trial court also issued an
additional supplemental judgment awarding father
his attorney fees.
Mother appeals those judgments. As discussed,
she argues that the trial court erred in concluding that
a significant change of circumstances has occurred
since the last judgment granting mother custody such
that a change of custody is justified. Specifically,
mother argues that, even assuming that the trial
court’s findings were factually correct, the trial court
legally erred in concluding that a change of circum­
stances had occurred. For the reasons stated below, we
agree with mother and reverse.

App. 40
As noted above, we review the trial court’s decision
to change custody for legal error. Sconce, 249 Or App at
153. Under ORS 107.135(l)(a), a “court may at any
time after a judgment of annulment or dissolution of
marriage or of separation is granted, upon the motion
of either party * * * [s]et aside, alter or modify any portion of the judgment that provides for * * * the custody
* * * of the minor children.” A parent seeking a change
in custody must demonstrate two things to effect that
change. Boldt and Boldt, 344 Or 1, 9,176 P3d 388, cert
den, 555 US 814 (2008). First, the parent must show
that, “after the original judgment or the last order af­
fecting custody, circumstances relevant to the capacity
of either the moving party or the legal custodian to
take care of the child properly have changed.” Id. Sec­
ond, the parent must show that, “considering the as­
serted change of circumstances in the context of all
relevant evidence, it would be in the child’s best inter­
ests to change custody from the legal custodian to the
moving party.” Id. The parent requesting a change in
custody bears the burden of proving a change in cir­
cumstances. Id. If that parent fails to carry his or her
initial burden, the court does not consider whether a
change in custody would be in the best interests of the
child. Id. In this case, we do not address whether father
proved that changing custody was in the best interest
of S, because, as we discuss further below, we conclude
that father did not prove as a matter of law that a
change of circumstances justifying a custody change
had occurred.

App. 41
As noted, when we assess whether a change of cir­
cumstances has occurred, “we view the evidence, as
supplemented and buttressed by permissible deriva­
tive inferences, in the light most favorable to the trial
court’s disposition and assess whether, when so viewed,
the record was legally sufficient to permit that out­
come.” Ibarra, 261 Or App at 599 (emphasis added;
internal quotation marks omitted). A change of circum­
stance can be shown by demonstrating that a change
has occurred “that has injuriously affected the child” or
by demonstrating that a change has occurred in the
custodial parent’s “ability or inclination to care for the
child in the best possible manner.” Boldt, 344 Or at 9.
Further, where the claimed change of circumstances
involves events of inadequate care and supervision,
they must be “ ‘of [such] a nature or number [reflecting]
a course of conduct or pattern [that] has had or threat­
ens to have a discernible adverse effect upon the
child.’” Kirkpatrick and Kirkpatrick, 248 Or App 539,
548,273 P3d 361 (2012) (quoting Buxton v. Storm, 236
Or App 578, 592, 238 P3d 30 (2010), rev den, 349 Or
654 (2011) (brackets in Buxton)).
Notably, a court’s determination that a change in
circumstance has occurred cannot be based on “evi­
dence that was or could have been introduced in [an]
earlier custody proceeding.” DeWolfe v. Miller, 208 Or
App 726, 744, 145 P3d 338 (2006), rev den, 342 Or
503 (2007). It “cannot be a circumstance that the court
contemplated at the time of the earlier determination”
or a circumstance known to the other parent that was
not raised during an earlier custody proceeding. Id. at

App. 42
744-45. Further, “[n]ormal developmental changes
* * H:
are factors that are not unanticipated changes”
because “they should be within the contemplation of a
court when it makes an initial custody determination.”
Dillard and Dillard, 179 Or App 24,32,39 P3d 230, rev
den, 344 Or 491 (2002). Therefore, those developmental
changes cannot “in themselves, provide the basis for a
change in circumstances.” Id.
In this case, as we noted above, the trial court
made six findings that it believed constituted a change
of circumstances sufficient to justify reconsidering the
previously established custody determination. Consid­
ering each of those findings separately and together,
we determine that, even when viewing the evidence
and inferences that follow from that evidence in the
light most favorable to the trial court’s determination,
they are not legally sufficient to constitute a change in
circumstances.
First, we conclude that mother’s struggle to imple­
ment S’s vaccination schedule as originally agreed to
and ordered by the court was not legally sufficient to
constitute a change of circumstances. Ibarra, 261 Or
App at 599. As we noted above, a change in circum­
stance “cannot be a circumstance that the court con­
templated at the time of the earlier determination.”
DeWolfe, 208 Or App at 744. Mother’s struggle to
timely vaccinate S is such a circumstance. In fact, vac­
cinations were such a key issue during the divorce pro­
ceedings that having S vaccinated on a particular
schedule was specifically ordered in the original
judgment of dissolution. Thus, the only change in

App. 43
circumstances presented by the trial court’s finding
that mother has “struggled to implement the vaccina­
tion schedule as originally agreed to and ordered by
the court” is that mother made a decision that violated
a court order.
Like any other proffered change of circumstance,
for a violation of a court order to be a legally sufficient
“change of circumstances” supporting a change in cus­
tody, that violation must be “‘of [such] a nature or
number [reflecting] a course of conduct or pattern
[that] has had or threatens to have a discernible ad­
verse effect upon the child.’” Kirkpatrick, 248 Or App
at 548 (quoting Buxton, 236 Or at 592 (brackets in
Buxton)). Here, as the court found in its oral ruling af­
ter the hearing, mother’s failure to vaccinate S “did not
* implicate transmission of any disease to [S] or to
any other child.” Further, the record indicates that
mother ultimately had S fully vaccinated by the time
of the hearing—though it was on a slower schedule
than the one that S’s pediatricians recommended.
Thus, mother’s failure to abide the court order did not
have and does not threaten to have a discernible ad­
verse effect on S.
As the Supreme Court observed in Boldt, “the au­
thority of the custodial parent to make medical deci­
sions for his or her child, including decisions involving
elective procedures and decisions that may involve
medical risks, is implicit in both our case law and Ore­
gon statutes.” 344 Or at 10. Under current Oregon law,
vaccinating your child is not an absolute requirement,
and parents may, under certain conditions, opt out of

App. 44
immunizations. See ORS 433.267(l)(c) (noting that
parents who send their children to an Oregon school
can file a “nonmedical exemption” with the state allow­
ing that parent to “declinfe] one or more immuniza­
tions on behalf of the child,” so long as those parents
supply documentation indicating that they have been
informed of the risks and benefits of immunizations);
OAR 333-050-0010(20) (same). We would be reluctant
to penalize a custodial parent for exercising discretion
that it is her right to exercise absent a court order. Be­
cause S was not harmed by mother’s failure to vac­
cinate her according to the court-ordered schedule, we
conclude that mother’s failure was not legally suffi­
cient to constitute a change of circumstances sufficient
to justify a change in custody.
We similarly conclude that mother’s extensive
questioning of S’s health care providers and slow deci­
sion making regarding S’s health was not legally suffi­
cient to constitute a change in circumstances justifying
a change in custody. Ibarra, 261 Or App at 599. Like
mother’s failure to timely vaccinate S, mother’s diffi­
culties working with pediatricians and other health
care officials regarding S’s medical care is not a new
development since the court’s initial custody determi­
nation. Here, the court’s primary reason for concluding
that mother had struggled to work with S’s health care
providers is that she spent an extraordinary amount
of time discussing S’s medical care with doctors (espe­
cially S’s ophthalmologists), that she sought opinions
from a large number of doctors before making medical
decisions, that she avoided making decisions that

App. 45
could possibly harm S, even if she was told that those
decisions were in S’s best interest, and that she occa­
sionally did not make medical decisions without pres­
sure from father. Evidence that mother exhibited all of
those behaviors was presented to the court before the
court’s prior custody determination.
As discussed above, mother had difficulties mak­
ing a decision regarding whether and when to vac­
cinate S prior to dissolution and consulted a number of
pediatricians on that issue prior to giving S her first
set of vaccinations. In fact, mother filed an affidavit
with the court before the court’s first custody determi­
nation admitting that: (1) she had asked the pediatri­
cian recommended by the court to give S fewer
vaccinations than she needed because of concerns that
S was sick that day; (2) she let that pediatrician give S
most of her vaccinations, but took S to a hospital the
next day to get a second opinion on S’s perceived ill­
ness; (3) she then scheduled an appointment with an­
other pediatrician to get a second opinion on S’s
vaccination schedule; and (4) that she only let S be­
come vaccinated “because she was afraid of what [fa­
ther] would do” if she did not allow it. Given that
mother’s issues making medical decisions were intro­
duced at the parties’ prior custody proceeding, we
cannot agree with the trial court’s conclusion that
mother’s extensive questioning of S’s health care pro­
viders and slow decision making regarding S’s health
care was legally sufficient to constitute a change of cir­
cumstance.

App. 46
We also conclude that, viewing the evidence in the
light most favorable to the trial court’s disposition,
mother’s failures to attend counseling sessions on time
were not legally sufficient to constitute a change of cir­
cumstance substantial enough to justify a change in
custody. Ibarra, 261 Or App at 599. As we previously
noted, where the claimed change of circumstances in­
volves events of inadequate care and supervision—
such as a claim that mother has failed to timely attend
and adequately complete counseling sessions with S—
those circumstances must be “‘of [such] a nature or
number [reflecting] a course of conduct or pattern
[that] has had or threatens to have a discernible ad­
verse effect upon the child.,n Kirkpatrick, 248 Or App
at 548 (quoting Buxton, 236 Or at 592 (brackets in
Buxton)). Here, the court did not find, and the record
does not indicate, that mother’s failures to timely at­
tend and maintain counseling had or threatened to
have a discernible adverse effect on S.
Mother voluntarily enrolled S in counseling at a
child-therapy center on three different occasions.
Mother missed and was occasionally late for sessions
within all three courses of treatment. Further, all three
courses of treatment were eventually ended informally
by mother, instead of formally by the child-therapy
center. However, the record indicates that, in all three
cases, therapists noted that either no further treat­
ment was necessary or that mother need only return
to treatment “as needed” because of the improvement
S had already demonstrated. In fact, the records for
S’s last course of treatment indicated that, when S’s

App. 47
treatment ended, all “[treatment goals had been met”
and that S was “projected to do well.” Given that S ul­
timately successfully met her treatment goals and did
not require further treatment when mother ended S’s
relationship with the treatment center on all three oc­
casions, nothing in the record indicates that mother’s
failures to timely attend and formally complete S’s
counseling sessions actually had a discernible adverse
effect on S and, thus, could not, as a legal matter, con­
stitute change of circumstances sufficient to justify a
change in custody.
Next, we conclude that, once again viewing the ev­
idence in the light most favorable to the trial court’s
decision, mother’s struggle to deliver S to school on
time also was not legally sufficient to constitute a
change in circumstances. Ibarra, 261 Or App at 599.
Once again, we note that for a proffered change of cir­
cumstance to be legally sufficient to support a change
in custody, that violation must be “ ‘of [such] a nature
or number [reflecting] a course of conduct or pattern
[that] has had or threatens to have a discernible ad­
verse effect upon the child.’” Kirkpatrick, 248 Or App
at 548 (quoting Buxton, 236 Or at 592 (brackets in
Buxton)). Here, the trial court’s findings and the rea­
sonable inferences supporting them do not demon­
strate that S’s tardiness had or threatened to have a
discernible adverse effect on her.
In this case, the only potential discernible adverse
effect of S’s tardiness presented in the record is that S
struggled academically and socially throughout the
first half of kindergarten. The trial court specifically

App. 48
found that those struggles existed. However, despite a
large amount of discussion about S’s tardiness by all of
the parties and witnesses, as well as the trial court, the
court did not attribute S’s struggles at school to her
tardiness. Instead, the court specifically found that the
delay in the surgical decision regarding S’s ophthalmological condition caused S’s struggles. That finding was
amply supported by the record. For instance, Sabin
noted in her report and in her testimony that S’s kin­
dergarten teacher believed that S exhibited marked
improvement at school after her surgery. Further, Sa­
bin testified that one of S’s ophthalmologists also be­
lieved that S’s surgery was the likely cause of S’s
increased success in school because “he often hears
that * * * after surgery children improve * * * and * * *
just enjoy school more [be] cause they[ are] not strug­
gling with their vision the same way.” Given that the
court, S’s teacher, and S’s ophthalmologist attributed
S’s struggles during the early parts of kindergarten—
the only potential discernible adverse effect of S’s tar­
diness—to S’s ophthalmological condition, not her tar­
diness, we conclude that S’s tardiness does not
constitute a change of circumstances legally sufficient
to justify a change in custody.
We next consider whether, when viewing the evi­
dence in the light most favorable to the trial court’s
disposition, the fact that S exhibited behavioral issues
with mother that she did not with father was legally
sufficient to constitute a change in circumstances jus­
tifying a change in custody. Ibarra, 261 Or App at 599.

App. 49
Just like the court’s other proffered changes in circum­
stances, we conclude that it was not.
A child’s behavioral issues alone do not constitute
a change in circumstances sufficient to justify a change
in custody. A change in circumstances “relates to the
capability of one or both parents to properly care for
the child.” Boldt, 344 Or at 9. Thus, for a child’s poor
behavior to be considered a change of circumstance,
that behavior must be “caused by a change in [a par­
ent’s] parenting abilities” or circumstances. Dillard,
179 Or App at 31.
Here, the trial court did not find, and there is no
evidence in the record indicating, that S’s poor behav­
ior was a result of any change in mother’s supervision
of S. At most, the record indicates that S’s poor behav­
ior was a result of S’s normal developmental changes
combined with mother’s anxious attachment to S, nei­
ther of which—as we discuss below—constituted a new
circumstance from the time that the original custody
order was entered. Given the lack of any change by
mother causing poor behavior, we conclude that S’s be­
havioral issues do not constitute a change of circum­
stance sufficient to justify a change of custody as a
legal matter.
We next address whether Sabin’s conclusion that
mother has an anxiously attached parenting style
coupled with S’s normal developmental changes was
legally sufficient to constitute a change in circum­
stances sufficient to justify a change in custody. Ibarra,
261 Or App at 599. We conclude that it was not. We

App. 50
reiterate that a change of circumstance “cannot be a
circumstance that the court contemplated at the time
of the earlier determination” or a circumstance known
to the other parent that was not raised dining an ear­
lier custody proceeding. DeWolfe, 208 Or App at 74445. Here, like mother’s difficulties making medical
decisions and getting S vaccinated, mother’s anxiously
attached parenting style was evident at the time of the
original custody determination.
In her report, Sabin notes that an anxiously at­
tached parenting style “is characterized by children
and parents having trouble separating, parents being
overly concerned about medical issues or small inju­
ries, troubles with transitions and a lack of consistent
clear parenting limits and boundaries with the child.”
Prior to the trial court’s original custody determina­
tion, mother exhibited at least two of those behaviors.
She had trouble separating from S, as evidenced by her
temporary psychotic break brought on by the stress of
S’s first overnight with father happening the next day.
Mother was overly concerned with medical issues and
small injuries, as evidenced by her need to consult mul­
tiple pediatricians regarding vaccines and her overall
difficulties deciding to get S vaccinated. Further, as
Sabin noted in her report and at trial, mother’s attach­
ment style is likely not the result of some new outside
stimulus but, rather, originated from the fact that she
was abused by her mother as a child—something that
happened long before the original custody determina­
tion in this case. As a result, mother’s anxious attach­
ment was known and present during the original

App. 51
custody determination and, thus, is not legally a
change of circumstance.
Mother’s attachment style combined with the
child’s normal development also does not constitute a
sufficient change of circumstances as a matter of law.
As we have noted, “[n]ormal developmental changes
* *• * are factors that are not unanticipated changes”
and, thus, “they should be within the contemplation of
a court when it makes an initial custody determination
and so cannot, in themselves, provide the basis for a
change in circumstances.” Dillard, 179 Or App at 32.
The fact that S would become more independent as she
aged is a normal developmental change that the trial
court presumably considered at the time of the original
custody determination. Thus, because both S’s ex­
pected normal developmental changes as well as
mother’s anxiously attached parenting style were pre­
sent at the time of the original custody determination,
those two things, taken together, cannot constitute a
change of circumstances justifying a new custody de­
termination either.
Finally, we determine that, even considering the
circumstances that the trial court properly identified
as “changed” all together, a change of circumstances
justifying a change in custody has not occurred. As
noted above, we can consider only mother’s struggle to
maintain a timely relationship with S’s counselors, her
struggle to get S to school on time, and S’s behavior
problems with mother when considering whether a
change of circumstances occurred, because the other
circumstances identified by the court existed at the

App. 52
time of the parties’ last custody determination. Consid­
ering only those three circumstances, we conclude that,
taken together, they are not “legally sufficient to per­
mit” a change of circumstances. Ibarra, 261 or App at
599 (internal quotation marks omitted).
For the same reasons that each of those circum­
stances is not legally sufficient to constitute a change
in circumstances, we also conclude that those circum­
stances together are not legally sufficient to justify a
change in custody. Consequently, because none of the
circumstances on which the trial court relied reflects
a change legally sufficient to justify a change of cus­
tody—either individually or when taken together—we
conclude that the trial court erred in determining that
a change of circumstances justifying a change of cus­
tody had occurred. As a result, the trial court erred in
awarding custody to father, and we reverse the supple­
mental judgment awarding custody.
Having concluded that the trial court erred in
awarding custody to father, we turn to the court’s
award of attorney fees. On appeal, both parties agree
that, if we reverse the court’s judgment granting cus­
tody to father, the judgment ordering mother to pay
father’s attorney fees must be reversed as well. We
agree and, given our disposition, reverse the judgment
ordering attorney fees. See ORS 20.220(3)(a) (noting
that, “[i]f the appellate court reverses the judgment,
the award of attorney fees or costs and disbursements
shall be deemed reversed”).

App. 53
Supplemental judgment awarding custody of S to
father reversed; supplemental judgment awarding at­
torney fees to father reversed.

App. 54
IN THE CIRCUIT COURT OF THE
STATE OF OREGON
FOR THE COUNTY OF WASHINGTON
Family Law Department
In the Matter of the Marriage )
)
of:
)
LOREDANA ELIZABETH
)
BOTOFAN MILLER,
Petitioner,
and
BRETT ROBERT MILLER,
Respondent.

)
)
)
)
)
)

Case No.
C10-4720DRA
CORRECTIVE
SUPPLEMENTAL
JUDGMENT

The above-entitled matter came before the court
pursuant to Respondent’s motion to modify custody,
parenting time, and child support. Respondent has
been represented by Douglas N. Peterson of Peterson,
Peterson, Walchli and Roberson LLP. Petitioner has
been represented by James E. Zwaanstra of Hillsboro
Law Group PC. The parties appeared for trial on two
days before the Honorable Judge Kirsten E. Thompson
on September 29 and 30,2015, The court, having heard
the testimony of both parties and witnesses and hav­
ing considered all of the evidence placed into evidence
during the trial, and otherwise being fully advised,
makes the following findings of fact:
1. Both parties and the minor child have contin­
ued to reside in the State of Oregon. Oregon has

App. 55
continuing exclusive jurisdiction pursuant to the
UCCJEA to render a child custody determination at
this time.
2. Petitioner is self-employed providing in-home
day care services and earns a gross monthly income of
$2,100 per month. Respondent is employed part-time
in the financial services industry and additionally at­
tends classes in pursuit of his Master’s in teaching de­
gree. Respondent’s income has been set at $2,300 per
month for the purposes of a Child Support Calculation.
Neither parent has medical, dental nor is vision insur­
ance available to them through their employment and
the child is currently enrolled on the Oregon Health
Plan. The parents will divide the child’s unreimbursed
medical expenses between them making an award of
cash medical support unnecessary. Neither parent in­
curs any work-related child care costs at the current
time nor does neither parent have any non-joint chil­
dren. The parenting plan adopted by the court will re­
sult in the minor child spending 35% of the overnights
in Petitioner’s household and this figure has been used
for the purposes of the parenting time credit.
3. A significant change of circumstances have oc­
curred since the entry of the last judgment, more spe­
cifically:
a. At the time of the parties divorce the child was
young and there were some issues regarding medical
care, but there were no educational issues and no indi­
cation that mother had problems scheduling or coordi­
nating the child’s medical or educational care.

App. 56
b. In the four years since the original divorce
with Mother as the custodial parent, she had struggled
to implement the vaccination schedule as originally
agreed to and ordered by the court, struggled to work
with the child’s primary care providers at both the pe­
diatric and ophthalmologic levels. Mother has also
struggled to maintain a timely relationship with the
Morrison Center counselors and completing the course
of treatment set forth. Mother has frequently strug­
gled to deliver the child to counseling sessions on time
and to school on time.
c. Father has not reported the same behavioral
issues in the child as Mother has.
d. The Court concurs with Dr. Sabin’s opinion
and concern that, as the child grows older, and her care
becomes more complex, that the above issues will
likely get worse. Dr. Charlene Sabin was qualified to
make the projections in this regard based on what she
observed during the evaluation.
4. It is in the child’s best interests that Father is
awarded the custody of the parties’ minor child at this
time subject to Mother’s right to parenting time.

THE COURT, HAVING MADE THE ABOVE
FINDINGS, HEREBY ORDERS AS FOLLOWS:
1) CUSTODY. Respondent, Brett Robert Miller,
is awarded the sole legal custody of the parties’ minor
child, Silvia Elizabeth Miller, subject to the parenting
plan which defines when the child will enjoy parenting
time with each parent. The parenting plan attached to

App. 57
this judgment is incorporated by this reference herein,
and both parties are ordered to comply with its terms.
Despite this award of sole custody of the minor child to
Respondent, and in addition to the non-custodial par­
ent’s rights that Petitioner has created by Oregon stat­
ute, each parent shall have an affirmative obligation to
provide the other parent all educational information
and school enrollment information and shall provide
each other with any and all documentation that is re­
ceived from the child’s school in a prompt fashion after
they receive it themselves. Petitioner is encouraged to
make sure that the school has her mailing address and
contact information such that this type of information
can be sent directly to her, but Respondent shall have
an affirmative obligation to provide Petitioner with
copies of documents or notices that are sent home with
the 7 child and not necessarily emailed or traditionally
mailed to both parents.
2) CHILD SUPPORT. Effective October 1, 2015,
Respondent will have a money award against Peti­
tioner for child support on behalf of the parties’ minor
child in the monthly amount of $170. No portion is cash
medical support. Such judgment will continue to ac­
crue at I that rate on the first day of each month until
further order of the court and will continue during any
period of time the child maintains the status as a
“Child Attending School” as that term is defined by Or­
egon Statute but shall terminate not later than the
death, marriage or 21st birthday of the child.

App. 58
INCOME WITHHOLDING
THIS SUPPORT ORDER IS ENFORCEABLE BY
INCOME WITHHOLDING UNDER ORS 25.372
TO 25.427. WITHHOLDING SHALL OCCUR IM­
MEDIATELY, WHENEVER THERE ARE AR­
REARAGES AT LEAST EQUAL TO THE
SUPPORT PAYMENT FOR ONE MONTH, WHEN­
EVER THE OBLIGATED PARENT REQUESTS
SUCH WITHHOLDING OR WHENEVER THE
OBLIGEE REQUESTS WITHHOLDING FOR
GOOD CAUSE. THE DISTRICT ATTORNEY OR,
AS APPROPRIATE, THE SUPPORT ENFORCE­
MENT DIVISION OF THE DEPARTMENT OF
JUSTICE WILL ASSIST IN SECURING SUCH
WITHHOLDING. EXCEPTIONS MAY APPLY IN
SOME CIRCUMSTANCES.
NOTICE OF SUPPORT AND PARENTING
TIME RIGHTS AND RESPONSIBILITIES
The terms of child support and parenting time
(visitation) are designed for the child’s benefit
and not the parents’ benefit. You must pay sup­
port even if you are not receiving visitation. You
must comply with visitation orders even if you
are not receiving child support. Violation of
child support orders and visitation orders is
punishable by fine, imprisonment or other pen­
alties.
Publicly funded help is available to establish, en­
force and modify child support orders. Paternity

App. 59
establishment services are also available. Con­
tact your local district attorney, domestic rela­
tions court clerk or the Department of Human
Resources at (503) 378-5567 for information.
Publicly funded help may be available to estab­
lish, enforce, and modify visitation orders.
Forms are available to enforce visitation orders.
Contact the domestic relations court clerk or
civil court clerk for information.
ORS 25.020 (8). The decree or order shall contain
the residence, mailing or contact address and
Social Security Number of the obligee and obli­
gor, and in addition, the business address of the
obligor. Each person shall inform the court and
the administrator in writing of any change in the
information required by this subsection within
ten (10) days after such change. The Department
of Human Resources may also require of the par­
ties any additional information which is author­
ized by law and is necessary for the provision of
support enforcement services under ORS 25.080.
NOTICE OF PERIODIC REVIEW AND
MODIFICATION OF CHILD SUPPORT ORDERS
If your child support case is handled by the Dis­
trict Attorney of the Support Enforcement Divi­
sion (SED) this agency will review your child
support order if at least three years have passed
since the order was entered, modified, or last re­
viewed. (This review will take place only if a

App. 60
parent requests one.) The purpose of this review
is to assess if the amount ordered is still within
the guidelines for child support set out in Ore­
gon law. The review could result in an increase
or decrease in the support amount, depending
on the parent’s financial circumstances and the
needs of the child. This “periodic review” service
is provided at no cost to parents, but is available
only for cases handled by the District Attorney
or SED.
BASIS FOR DISCONTINUATION, NON­
INITIATION OF WITHHOLDING - ORS 25.396
(1) The court or administrator may
grant an exception to income withhold­
ing required under ORS 25.378 if:
(a) The obligor and oblige at any
time agree in writing to an alter­
native payment method;
(b) When money is owed to the state
under the support order, the
state agrees in writing to the al­
ternative payment method;
(c) The obligor has paid in full all ar­
rears accrued under the support
order;
(d) The obligor has complied with
the terms of any previous excep­
tion granted under this section;
and

App. 61
(e) The court or administrator ac­
cepts the alternative payment
method.
A child support guideline worksheet reflecting the
gross monthly incomes of both the Petitioner and the
Respondent, any work related childcare costs, the
amount of any healthcare premiums incurred by the
parties for the benefit of the parties’ support eligible
children, the parenting time credit, and any and all de­
viations are attached to this judgment as required un­
der the provisions of UTCR 8.060.
3) MEDICAL INSURANCE and UNREIM­
BURSED MEDICAL EXPENSES. Petitioner will be
ordered to provide appropriate private healthcare cov­
erage for the child whenever it is available to her at a
cost of not more than $84 per month through an em­
ployer or any other source, including a spouse, domes­
tic partner, or other family member.
Respondent, as the custodial parent, will be or­
dered to provide appropriate private healthcare cover­
age whenever it is available at a cost of no more than
$92 per month through an employer or any other
source, including a spouse, domestic partner, or other
family member. Respondent is ordered to apply and
continuously enroll the child in public healthcare cov­
erage whenever private healthcare coverage is not
available through either parent. He shall provide Peti­
tioner with a copy of the OHP (or other) insurance
card, and both parties shall fully cooperate in making
claims on said policy The parties should use medical

App. 62
providers who accept OHP, or any applicable replace­
ment insurance, to the greatest extent possible.
Each party shall pay one-half of all the child’s rea­
sonably incurred medical, optical, hospital, dental,
mental health, and orthodontic expenses which are not
covered by insurance, after Respondent pays the first
$250 per year. Respondent shall document his pay­
ment of the first $250.
It shall be the obligation of the parent who incurs
an unreimbursed medical cost to request payment
from the other party of any such expenses within 90
days from the date the insurance company has com­
pleted processing of the claim. The reimbursing party
shall make payment to the care provider or to the party
who incurred the expense (as appropriate) within 30
days of receipt of the billing information. Direct pay­
ment to the care provider is preferred. For example,
Mother would reimburse Father for one-half of the co­
payment which Father paid the doctor at the time of
the visit but would pay the doctor directly for Mother’s
portion of the uninsured charges.

App. 63
Money Award
(Child Support)
Personal Information:
Judgment Creditor’s
Name:
Address:

Brett Robert Miller
8675 SW Yakima Court
Tualatin, OR 97062

Judgment Creditor’s
Attorney’s Name:
Address:
Telephone Number:

Douglas N. Peterson
Peterson, Peterson,
Walchli & Roberson LLP
230 NE Second Avenue,
Suite C
Hillsboro, OR 97124
503-547-0576

Judgment Debtor
Information:
Address:

Loredana Elizabeth
Botofan-Miller
13630 SE Steele Street
Portland, OR 97236
1977

Year of Birth:
SSN:
ODL:
Attorney Name for
Judgment Debtor:
Address:
Telephone Number:

xxx-xx-0728
xxxx

James E. Zwaanstra
Hillsboro Law Group PC
5289 NE Elam Young Pkwy
Ste 110
Hillsboro, OR 97124
503-503-648-0707

Others Entitled to Money
Award:
None

App. 64
CHILD SUPPORT JUDGMENT
Total Amount of Monthly $170; of which $0 is cash
medical support.
Child Support
October 1, 2015, and con­
Payment Dates:
tinuing at that rate there­
after until further order of
the court and continuing
while the child is a “Child
Attending School,” but ter­
minating upon the death,
marriage or 21’ birthday of
the child.
None

Prejudgment Interest:
Post-Judgment Interest
Rate:
Balance upon which
Interest Accrues:
DATED: January
cember 22, 2015.

9%
$170

, 2016, NUNC PRO TUNC to De-

The Honorable Kirsten E. Thompson
Circuit Court Judge

App. 65
PREPARED AND SUBMITTED BY:
PETERSON, PETERSON, WALCHLI &
ROBERSON, L.L.P
/s/ Doug Peterson_____________
By: Douglas Peterson,
OSB 013800
doug@petersonlaw.net
Of Attorneys for Respondent

CERTIFICATE OF SERVICE
I hereby certify that I served a true copy of forego­
ing document on the following named person(s) on the
date below:
James E. Zwaanstra
Hillsboro Law Group PC
5289 NE Elam Young Parkway Suite 110
Hillsboro OR 97124
F:503-693-1353
E: jamesw@hillsborolawgroup.com
©

That said pleading was contained in a sealed
envelope, addressed to said persons at the ad­
dress shown above and deposited the same in
the post office at Hillsboro, Oregon on said
day.

o

Via facsimile at the fax number noted above,

o

Via email at the email address noted above,

o

Via hand-delivery.

DATED: January 19, 2016.

App. 66
PETERSON, PE SON, WALCHLI &
ROBERSON LLP
/s/ Doug Peterson
Douglas. Peterson OSB No. 013800
doug@petersonlaw. net
Of Attorneys for Respondent

App. 67
IN THE SUPREME COURT OF THE
STATE OF OREGON
In the Matter of the Marriage of
LOREDANA ELIZABETH BOTOFAN-MILLER,
Petitioner-Appellant,
Respondent on Review,
and
BRETT ROBERT MILLER,
Respondent-Respondent,
Petitioner on Review.
Court of Appeals
A161266
S065723

APPELLATE JUDGMENT AND
SUPPLEMENTAL JUDGMENT
(Filed Jan. 6,2020)
En Banc
On review from the Court of Appeals.*
Argued and submitted January 18, 2019.
Attorney for Petitioner on Review: Robert Koch.
Attorney for Respondent on Review: Loredana Eliza­
beth Botofan-Miller, pro se.
The decision of the Court of Appeals is reversed.
The judgment of the circuit court is affirmed.
*On appeal from Washington County Circuit
Court, Kirsten E. Thompson, Judge. 288 Or
App 674, 406 P3d 175 (2017).

App. 68

DESIGNATION OF PREVAILING
PARTY AND AWARD OF COSTS
Prevailing party: Petitioner on Review.
[ X ] Costs allowed, payable by: Respondent on Review
APPELLATE JUDGMENT AND
SUPPLEMENTAL JUDGMENT
REPLIES SHOULD BE DIRECTED TO:
State Court Administrator, Records Section,
Supreme Court Building, 1163 State Street,
Salem, OR 97301-2563
MONEY AWARD
Creditor:

Brett Robert Miller

Attorney:

Robert Koch, 888 SW 5th Ave
Ste 1600, Portland OR 97204

Debtor:

Loredana Elizabeth Botofan-Miller pro se

Costs:

$473.00

Total Amount: $473.00
Interest: Simple, 9% per annum, from the date of this
appellate judgment.

App. 69
Appellate Judgment
Effective Date: December 23, 2019

[SEAL]

THIS IS THE APPELLATE JUDGEMENTS
OF THE APPELLANT COURTS AND SHOULD
BE ENTERED ACCORDING TO ORS 19.450.

